HHS/OIG-Audit--"Review of Oklahoma Claims for Contract Training and Administrative
Costs,"(A-06-95-00037)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Oklahoma Claims for Contract Training and Administrative Costs," (A-06-95-00037)
October 18, 1996
Complete
Text of Report is available in PDF format (542 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of the Office of Inspector General (OIG)
Office of Audit Services (OAS) Review of Oklahoma Claims for Contract Training
and Administrative Costs. The purpose of our review was to determine the allowability
of training costs claimed by the Oklahoma Department of Human Services (State)
under Department of Health and Human Services (HHS) programs. Our review covered
the period July 1, 1993 through June 30, 1994.